        I


                                         NATIONAL SCIENCE FOUNDATIOIY
                                             ARLINGTON, VA 22230
                      I




                                                                               -
                O f f i c e of
            Inspector G e n e r a l




                  DATE: March 20. 1995
                  FROM :         d
                          VIA:   m
             SUBJECT: Theft of           A            ..    at University of


    I             -        TO:   Case No. I94070032

            On July 19, 1994, we were informed by Dr.
                     of NSF1s Division of Mathematical Sciences. a theft of
                                                        at the -J
I


                                                        on the campus of the
I
I                                                     . The stolen equipment,
I                                                     ight personal-
            a-     a                   and other items. All of this equipment
            was purchased with NSF fuids under grant no.           .




                 -
            We contacted t h e m police department, which was conducting an
            investigation into the theft.       According to detectives, the
            equipment was stolen fro-      offices on July 9, 1994. There were
            no signs of forced entry found, and detectives speculated that
            entry was gained by the use of spare or missing keys.         After
            intenriews with-workers,       a forme-worker        was identified
            as a suspect, but the suspect had vanished from the area and could
            not be located.       detectives told us they had no further leads.
            At OIG1s request, the        police department entered the serial
            numbers of the missing equipment into the National Crime
            Information Center*(NCIC) to increase the possibility of recovering
            it.      police also informed us that security at t h e m f a c i l i t y
            would be tightened to prevent                              on January
            3 , 1995, another, similar                         equipment again
            occurred
                  ' eath t           This                              at between
            $13,000 - $15,000, was bought to replace the equipment missing from
            the first theft.        detectives had no suspects in this latter
            theft, but stated they would inform us of any developments in the
            case.
Due to a lack of investigative leads, and because local law
enforcement will inform us of any new developments, this case does
not warrant further OIG investigation at this time.
This case is closed.
